U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 27, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Public Watchdogs v. Southern California Edison Co., et al., No. 20-1676

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 28, 2021.
The government’s response is now due, after one extension, on October 1, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
November 1, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner and counsel for the private respondents do not oppose this further
extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

20-1676
PUBLIC WATCHDOGS
SOUTHERN CALIFORNIA EDISON COMPANY, ET
AL.

L. RACHEL LERMAN
BARNES & THORNBURG LLP
2029 CENTURY PARK EAST
LOS ANGELES, CA 90067
BRIAN E. CASEY
BARNES & THORNBURG LLP
201 S. MAIN ST.
SUITE 400
SOUTH BEND, IN 46601
574 233-1171
BRIAN.CASEY@BTLAW.COM
CHARLES LA BELLA
BARNES & THORNBURG LLP
655 W. BROADWAY
STE. 1300
SAN DIEGO, CA 92101

